HHS/OIG-Audit--"Review of Elder Abuse Identification, Investigation and Resolution Procedures for Illinois Long-Term Care Facilities, Illinois Department on Aging, Illinois Department of Public Health (A-05-97-00010)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
Review of Elder Abuse Identification, Investigation and Resolution Procedures
for Illinois Long-Term Care Facilities, Illinois Department on Aging, Illinois
Department of Public Health (A-05-97-00010)
May 27, 1998
Complete Text of Report is available in PDF format
(174 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of our reviews were to assess the effectiveness of the procedures
established to identify, investigate and resolve reports of elder abuse in Illinois
long-term care (LTC) facilities and to evaluate the accuracy and completeness
of the certified nurse aide (CNA) registry. We also determined whether LTC facilities
employed alleged abusers, who had undisclosed criminal backgrounds which would
have been identified if the Illinois Health Care Workers Background Check Act
(HCWBC Act) had been implemented sooner.